HHS/OIG-Audit--"Review of Medicaid Payments by Nebraska Department of Social Services to Rivendell of Nebraska, (A-07-93-00635)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Payments by Nebraska Department of Social Services
to Rivendell of Nebraska," (A-07-93-00635)
July 27, 1994
Complete Text of Report is available in PDF format
(3.2 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Nebraska Department of Social Services
(DSS) made overpayments totaling $2,163,243 (Federal share $1,319,490) for services
provided to Medicaid recipients at Rivendell of Nebraska, a psychiatric hospital
for children and adolescents. The overpayments occurred because DSS based their
payments on Rivendell's unaudited cost reports which contained costs not allowed
by the Health Care Financing Administration regulations. In addition to financial
adjustments, we recommended that DSS ensure that an intermediary is assigned
to audit Rivendell's future cost reports. The DSS agreed with our findings.